M-120639 (07/20)
VISA SIGNATURE CARDHOLDER - AGREEMENT AND DISCLOSURE STATEMENT
TINKER FEDERAL CREDIT UNION - VISA SIGNATURE
Interest Rates and Interest Charges
ANNUAL PERCENTAGE
0.00% introductory rate on purchases for 6 months from date of account opening; thereafter, the APR is set
RATE (APR) for
by your credit rating at the time of account opening.*
Purchases

Rate 1 –

10.75%
14.75%

Rate 2 – 11.75% Rate 3 –

12.75%

Rate 4 – 13.75%

Rate 5 –
The APR will vary with the market based on the Prime Rate.
APR for Balance
Transfers
0% Introductory Rate is not
available for transfers from
current TFCU credit card
accounts.
See “Other Terms” Below
APR for Cash Advances

Paying Interest

For Credit Card Tips
from the Consumer
Financial Protection
Bureau
Fees
Set-Up and Maintenance
Fees
● Annual Fee
Transaction Fees
● Balance Transfer Fee
● Cash Advance Fee
● Foreign Transaction
Penalty Fees
● Late Payment
● Returned Check Fee

0.00% introductory rate on balance transfers for 6 months on balance transfers that occur within the first 60
days of account opening; thereafter, the APR is set by your credit rating at the time of account opening.*
Rate 1 – 12.75% Rate 2 – 13.75% Rate 3 – 14.75% Rate 4 – 15.75% Rate 5 – 16.75%
Balance transfer APR: The current program APR which will be set by your credit rating at the time of account
opening.* The APR will vary with the market based on the Prime Rate.
Rate 1 – 12.75% Rate 2 – 13.75% Rate 3 – 14.75% Rate 4 – 15.75% Rate 5 – 16.75%
Cash advance APR: The current program APR which will be set by your credit rating at the time of account
opening.* The APR will vary with the market based on the Prime Rate.
Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest on
purchases if you pay your entire balance by the due date each month. We will begin charging interest on cash
advances and balance transfers on the transaction date.
To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

None
2.50%
2.00%
1% of each transaction in U.S. dollars.
Up to $22 -If your minimum monthly payment is not received by us on the due date on your monthly statement,
we may impose a late fee of up to $22 which will be reflected on the following monthly statement.
Up to $20 - the Credit Union may charge a return check fee for each return by a bank or other depository
institution of a dishonored check, negotiable order of withdrawal or share draft issued by cardholder(s) as
payment on the credit card account.

Other Fees
● Statement Copy
● Ticket Copy

$2 - the Credit Union may charge a $2.00 fee for each duplicate copy of requested monthly billing statement(s).
The Credit Union may charge for each duplicate copy of requested sales slip(s). However, if the request for a
duplicate copy of a sales slip is in connection with any disputed billing matter, (see “YOUR BILLING
RIGHTS”), a fee will not be imposed.
$25 - Travel and Entertainment documents
$6 - Original sales slip
$5 - Photocopy of sales slip
● Card Replacement Fee
$13 - the Credit Union may charge for each credit card that is reissued prior to the current cards expiration date.
How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new purchases).” See the INTEREST
CHARGE CALCULATION METHODS section of this cardholder agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is included in this cardholder agreement under
the YOUR BILLING RIGHTS section.
*The credit score ranges are as follows: Rate 1 (740 and above) Rate 2 (700-739) Rate 3 (660-699) Rate 4 (625-659) Rate 5 (0 to 624)
Your account must be open to receive a Year-End Purchase Summary and to use other program benefits.
Other Terms: IMPORTANT NOTICE TO CURRENT TFCU CREDIT CARD ACCOUNT HOLDERS If you currently have a credit card issued by TFCU and you decide to
apply to instead use the new VISA Signature Cash-Back credit card to be issued by TFCU, there are a number of important disclosures of terms for you to consider first before you
apply. You will not be charged the 2.50% balance transfer fee for transfers from your current TFCU-issued credit card, but you will NOT receive the promotional rate of 0% APR
for 6 months. Instead, you will be required to continue to pay Prime Rate plus the percentage rates set based on your credit score at the time you opened the account on any amounts
you transfer to this card. You will also be paying an interest rate which will be the HIGHER RATES on the chart for your specific type of card on all new purchases, balance
transfers, and cash advances if you do not pay off the entire outstanding balance each month before the 25-day grace period to make your payment expire each month. You also will
pay a new 2.50% balance transfer fee on all balance transfers from other lenders. You will be paying a new 2.00% fee on all cash advances. On your current account you do not
have any fee on balance transfers or cash advances, although both do immediately begin to accrue interest, just as they will on this new account, but at the lower rates instead of the
higher interest rate you will pay on the new account. You will lose any CURewards points you may have if you close your current account before the points are used. Lower credit
limits may be set on the new account and you will not be permitted to transfer balances if you choose to keep your current card and also apply for the new account, and your credit
score may be affected.

1

DEFINITIONS
Except as the context otherwise requires (a) “Account(s)” means
my Visa Signature credit card account established with Tinker
Federal Credit Union and governed by this Agreement; (b) “Issuer”
and/or “Credit Union” means Tinker Federal Credit Union of P.O.
Box 45750, Tinker Air Force Base, Oklahoma 73145; (c) “I,”
“Me,” “We,” “My,” “Our,” “Mine,” “Us,” “You,” “Your,” and
Cardholder(s)” mean all persons who have signed the application
for Visa Signature and/or used or permitted others to use the card;
(d) the “Card” or “Cards” means the Visa Signature card(s)
enclosed herewith; (e) “Agreement” means this document; (f)
“Cash Advance” means all cash advances obtained at any time
through the use of the card from any financial institution authorized
to honor the cards; (g) “Credit Limit” means the dollar amount
Credit Union approved against which I may borrow in accordance
with this Agreement; (h) “Application” means the credit application
I/We filled out and signed which is incorporated herein and made a
part of this Agreement; (i) “Prime Rate” means the rate published
daily in The Wall Street Journal under the caption “Money
Rates” and described as the base rate on corporate loans at large
United States money center commercial banks. If the “Prime Rate”
so published is a range, the “Prime Rate” will mean the highest of
the published range.
AGREEMENT TO EXTEND CREDIT
Credit Union agrees to extend credit to cardholder and advance
amounts, up to cardholder’s credit limit, to pay for: (i) all
purchases of goods and services of whatever type and nature made
at any time through the use of the card at businesses authorized to
honor a card, and (ii) all cash advances obtained at any time through
the use of the card from any financial institution or ATM authorized
to honor a card.
PROMISE TO PAY AND PERSONS LIABLE
By signing the application, retaining, and/or using the card(s) or
allowing an authorized party to use the card(s), I/We promise to pay
to Credit Union, or anyone Credit Union designates, all amounts
loaned under this Agreement plus the applicable interest charges,
attorney’s fees, court cases or other amounts that I/We owe Credit
Union. If more than one person applies for the card(s), each person
will be issued a card and will be a cardholder under this Agreement.
The cardholder whose name appears first on the application will be
considered the “Primary Cardholder.” The cardholder will be
responsible for all purchases, cash advances, and all interest charges
imposed under this Agreement. If there is more than one
cardholder for the account, each cardholder will be liable for all
amounts payable on the account regardless of which cardholder is
responsible for incurring such amounts. Each cardholder will also
be responsible for complying with all of the other terms of this
Agreement.
CREDIT LIMIT
The Credit Union has established an initial credit limit for
cardholder’s account(s) and reserves the right at any time, at
cardholder’s request or otherwise, to change the amount of credit
available through cardholder’s Visa Signature account(s).
Cardholder agrees not to incur charges or to permit others to incur
charges that would result in credit in excess of cardholder’s
authorized amount. The Credit Union does not allow over-the-limit
charges as a term of this product. If the credit limit should be
exceeded, for any reason, even inadvertently, cardholder agrees to
pay the amount over the limit immediately upon notice from the
Credit Union. Examples of inadvertent excess of credit limit
include, but are not limited to, returned payments and merchant
authorizations.

INTEREST CHARGE CALCULATION METHODS
The interest charge calculation method applicable to your account
for cash advances and credit purchases of goods and services that
you obtain through the use of your card is explained below.
Calculation Method A is used to determine the interest charge on
cash advances. Calculation Method G is used to determine the
interest charge on purchases of goods or services.
Method A – The interest charge on cash advances begins to accrue
on the date you obtain the cash advance or the first day of the
billing cycle in which it is posted to your account, whichever is
later. The interest charges for a billing cycle are computed by
applying the daily periodic rate to the average daily balance
multiplied by the number of days in the billing cycle OR the
monthly periodic rate to the average daily balance during the billing
cycle, which is determined by dividing the sum of the daily
balances during the billing cycle by the number of days in the cycle.
Each daily balance is determined by adding to the previous balance
(the outstanding balance of your account at the beginning of the
billing cycle) any new credit purchases posted to your account and
any new cash advances received, and subtracting any payments as
received or credits as posted to your account, but excluding any
unpaid interest charges.
Method G – The interest charge on credit purchases begins to
accrue on the date each purchase is posted to your account. To
avoid incurring an interest charge on the balance of credit purchases
reflected on your monthly statement and on any new credit
purchases appearing on your next statement, you must pay the new
balance shown on your monthly statement on or before the payment
due date. The interest charges for a billing cycle are computed by
applying the daily periodic rate to the average daily balance
multiplied by the number of days in the billing cycle OR the
monthly periodic rate to the average daily balance of credit
purchases, which is determined by dividing the sum of the daily
balances during the billing cycle by the number of days in the cycle.
Each daily balance is determined by adding to the previous balance
of credit purchases, any new credit purchases posted to your
account and subtracting any payments as received and credits as
posted to your account, but excluding any unpaid interest charges.
VARIABLE RATE DISCLOSURE
The Annual Percentage Rate is initially determined by your credit
rating. I understand that the monthly periodic rates and the Annual
Percentage Rates are variable rates that may change from time to
time. The current effective rates are disclosed on the insert the
Credit Union has furnished to me based on my credit score at the
time of account opening. My Annual Percentage Rate (APR)
may change (increase or decrease) from time to time based on
movements in the Prime Rate, published in The Wall Street
Journal on the 25th calendar day prior to the beginning of the
calendar quarter. If this date falls on a weekend or holiday, the
published rate on the next business day will be utilized. My new
rate will not become effective until after the end of my current
billing cycle in which movement of the Prime Rate dictates a
change to the Annual Percentage Rate currently in effect.

2

For purchases:
Rate 1 – If I receive Rate 1, the APR will be determined by adding
7.5% to the Prime Rate.
Rate 2 – If I receive Rate 2, the APR will be determined by adding
8.5% to the Prime Rate.
Rate 3 – If I receive Rate 3, the APR will be determined by adding
9.5% to the Prime Rate.
Rate 4 – If I receive Rate 4, the APR will be determined by adding
10.5% to the Prime Rate.
Rate 5 – If I receive Rate 5, the APR will be determined by adding
11.5% to the Prime Rate.

stolen, but not the card, you are not liable for any unauthorized use.
If you dispute any transaction, while we investigate, you must
timely pay other amounts owing, including finance charges on the
disputed amount.

For balance transfers and cash advances:
Rate 1 – If I receive Rate 1, the APR will be determined by adding
9.5% to the Prime Rate.
Rate 2 – If I receive Rate 2, the APR will be determined by adding
10.5% to the Prime Rate.
Rate 3 – If I receive Rate 3, the APR will be determined by adding
11.5% to the Prime Rate.
Rate 4 – If I receive Rate 4, the APR will be determined by adding
12.5% to the Prime Rate.
Rate 5 – If I receive Rate 5, the APR will be determined by adding
13.5% to the Prime Rate.

DISCLAIMER OF LIABILITY
The Credit Union shall not be responsible if a merchant or financial
institution shall refuse to honor any card. Refusal to honor shall not
affect or impair the obligation of cardholder to pay all sums due on
an account in accordance with the terms hereof. Notices hereunder
shall be effective only if given in writing to Credit Union at its
office and to cardholder at my last known mailing address, as
shown on Credit Union’s records.

The periodic rate will be adjusted after the end of my current billing
cycle in each calendar quarter in which movement of the Prime
Rate dictates a change. Calendar quarters begin January 1, April 1,
July 1, and October 1 of each year. I understand that my monthly
periodic rate will be 1/12th of the applicable APR. If there is an
increase in the Prime Rate, my minimum monthly payment may
also increase. Likewise, if the Prime Rate decreases, my minimum
monthly payment may also decrease. However, in no event will
the Annual Percentage Rate exceed 18.0% (which corresponds to
a monthly rate of 1.5%)
MONTHLY PAYMENTS
Cardholder(s) agree to pay monthly on or before the payment due
date either: (i) the total “New Balance” which includes any of the
previous unpaid balances, purchases, cash advances, payments and
credits or (ii) at least the “Minimum Payment” required, which is
the greater of $15.00 or 3% of the outstanding “New Balance” as
shown on the monthly statement. Payment “Due Date” on the
statement is twenty-five (25) days from the statement’s “Closing
Date.” The amounts paid as part of the Minimum Payment and all
amounts paid over the Minimum Payment are applied to balances as
permitted by law. We do not charge interest on interest.
All payments shall be considered made when received on any
business day (excluding federal holidays), when received at Tinker
Federal Credit Union’s billing address, P.O. Box 45750, Tinker
AFB, OK 73145, and when accompanied by the return portion of
the cardholder statement
CREDIT CARD LOSS OR FRAUDULENT TRANSFERS
Under the Fair Credit Billing Act, your liability for unauthorized
use of your card is capped at $50. However, if you report the loss
of your card before your credit card is used, you are not responsible
for any charges you did not authorize. Likewise, if you exercise
reasonable care in safeguarding your card from loss or theft and
promptly report any loss or theft of your card to TFCU you have
ZERO liability. TFCU must be notified of loss, theft, or possible
unauthorized use of the credit card by notification in person, by
calling (405) 732-0324, option 6, or (800) 456-4828, option 6, or by
writing to TFCU at P.O. Box 45750, Tinker AFB, Oklahoma
73145, Attn: Credit Card Department. If your credit card number is

ATTORNEY’S FEES
Cardholder agrees to pay all reasonable costs of collection including
reasonable attorney’s fees not in excess of fifteen percent (15%) of
the unpaid debt, court costs, and other lawful charges incurred by
the Credit Union in collecting the cardholder’s indebtedness,
whether or not suit is brought.

OWNERSHIP OF CARDS
Card(s) shall at all times remain the property of the Credit Union;
the cardholder agrees to surrender them upon demand. The Credit
Union may revoke the credit cards and cancel my line of credit if
issuer reasonably believes prospects of repayment are impaired,
then the unpaid balance becomes immediately due and payable at
once and my line of credit is cancelled. If Credit Union revokes the
credit cards and cancels the credit line, this does not affect
cardholder’s obligations to repay the credit union. Cardholder may
cancel account by written notice and return of the cut cards to the
Credit Union’s Credit Card Department
AMENDMENT
I agree that the terms of this Agreement are applicable to any
cardholder. I also agree that Credit Union may change the terms of
this Agreement at any time with written notice required by law
before the change becomes effective. Any changes to the
Agreement may apply to all outstanding indebtedness incurred
before, on, or after the effective date of the changes. Cardholder’s
failure to terminate the account prior to the effective date of an
Amendment shall constitute acceptance of such Amendment. To
terminate the account, all credit cards must be returned to Tinker
Federal Credit Union Credit Card Department and the cardholder
will be required to pay the account in accordance with the terms of
the Cardholder Agreement and Disclosure Statement.
CHOICE OF LAW
I acknowledge and understand that the obligations under this
Agreement represented by charges to my account(s) were
contracted for and became binding when the sales drafts, card slips
or other credit devices were accepted by the Credit Union and
caused the holder of the same to be paid, and this occurred in
Oklahoma County, and the courts of Oklahoma County shall have
venue to try controversies arising out of this agreement. If any
portion of the Agreement is determined to be unenforceable, it will
not make any other part unenforceable.
IRREGULAR PAYMENTS: DELAY IN ENFORCEMENT
The Credit Union can accept late payments, partial payments,
checks and money orders marked “Paid in Full” or language having
the same effect without losing any of the cardholder’s rights under
this Agreement. The Credit Union can also delay enforcing our
rights under this Agreement any number of times without losing
them. The fact that the Credit Union may honor a purchase or cash
3

advance in excess of the credit limit does not obligate the Credit
Union to do so thereafter.

EVENTS OF DEFAULT
I will be in default under this Plan and Agreement if any of the
following events shall occur:
(a) If I fail to comply with the minimum payment or any other
terms or conditions of this Agreement I may have with you;
(b) If I should die or become insolvent;
(c) If a petition should be filed or other proceeding should be
started under the Federal Bankruptcy Code or any State
insolvency Statute by or against me;
(d) If a receiver should be appointed or a writ or order of
attachment, levy or garnishment should be issued against me or
any of my property, assets or income;
(e) If Credit Union should consider itself or any debts due under
this Agreement unsafe or not completely secure of if Credit
Union should believe, in good faith, that the chances of my
paying or performing all of my obligations under this
Agreement have been impaired; or
(f) If anything in the application or use of this card is
misrepresented or used for any fraudulent purchase.
ENTIRE BALANCE DUE
If any of the above events of default should occur, my entire
outstanding balance shall immediately become due and payable,
without Credit Union notifying me, with interest due on the balance
at the applicable APR as provided herein per year until paid, and
Credit Union’s obligations to honor my use of the card to get credit
extensions from anyone or to make further advances to me shall, at
Credit Union’s option, and without notice, immediately end. If I
fail to pay the outstanding balance immediately, on Credit Union’s
demand, I agree to pay all of Credit Union’s collection expenses,
including Credit Union’s reasonable attorney’s fees.

connection with the participation of another person in unlawful
Internet gambling:
■ Credit, or the proceeds of credit, extended to or on behalf of such
person (including credit extended through the use of a credit card);
■ An electronic fund transfer, or funds transmitted by or through a
money transmitting business, or the proceeds of an electronic fund
transfer or money transmitting service, from or on behalf of such
other person; and
■ Any check, draft, or similar instrument that is drawn by or on
behalf of such other person and is drawn on or payable at or through
any financial institution.
Internet gambling will generally be deemed to be unlawful unless it
is expressly authorized by license issued by an appropriate State or
Tribal authority.
CREDIT INVESTIGATION
Since Credit Union has the sole right to approve my application and
allow me to use the card(s) now and in the future, I authorize Credit
Union at any time to make or have made whatever credit
investigation Credit Union feels is proper to evaluate my credit,
personal or financial standing and /or employment, and I authorize
Credit Union to share my credit experience with credit bureaus. I
also agree to furnish Credit Union current financial statements in
such details as Credit Union may require on an annual basis and
more frequently at Credit Union’s request.
For the purpose of the following sections only, “You”/”Your”
means all persons who have signed the application for VISA
Signature and used or permitted others to use the card; and
“Us”/”We” means Tinker Federal Credit Union of PO Box 45750,
Tinker Air Force Base, Oklahoma 73145.

FOREIGN EXCHANGE RATE AND INTERNATIONAL
SERVICE ASSESSEMENT (ISA) FEE
On all international purchases, credit vouchers, and cash
disbursements (which would include credit purchases and cash
advances), i.e. all transactions where a merchant country differs
from the country of the card issuer (1) the foreign exchange rate
which will be charged will be a rate selected by VISA from the
range of rates available in wholesale currency markets for the
applicable processing date (which may vary from the rate VISA
itself receives) or the government mandated rate in effect for the
applicable central processing date and (2) in addition, a one percent
(1%) International Service Assessment (ISA) fee will be charged.

CASH BACK REWARDS PROGRAM (“Program”) TERMS
AND CONDITIONS
Cash back rewards cannot be earned until a Signature Rewards
Card has been received from Tinker Federal Credit Union
(“TFCU”) and activated by you and used for purchases. Only
Signature Rewards Card accounts will qualify to accumulate cash
back rewards. Any benefit from other Signature Rewards Card
accounts cannot be transferred or combined. Cash accrual is not
transferable to other programs. Signature Rewards Card is not
associated with any other credit card or rewards offered by TFCU.
If you have any CURewards points available on any other account
with TFCU, you should use those CURewards points before you
close that account and open this account or you will lose those
points.

ILLEGAL TRANSACTIONS
A credit card may not be used for an illegal transaction. Certain
transactions are prohibited from being processed through your
account with the Credit Union under the Unlawful Internet
Gambling Enforcement Act of 2006 (“the Act”) and related
regulations issued by the Board of Governors of the Federal
Reserve System and the United States Department of the Treasury
(“Regulation GG”). The Credit Union is required by the Act and
Regulation GG to inform you of this restriction.

Cash back rewards will be provided in the form of a statement
credit. Cardholders will need to enroll in the Cash Back Mall
in order to receive their statement credit. Cardholders will
need to enroll their share account in Home Branch, then enroll
their credit card for online account access, and Cash Back Mall.
Alternatively, cardholders may call 1-855-799-8130 and request
to redeem their points for statement credit. .

The transactions which are prohibited are the following transactions
or transmittals involving any credit, funds, instrument, or proceeds
that the Act prohibits any person engaged in the business of betting
or wagering (except for the activities of a financial transaction
provider,
or
any
interactive
computer
service
or
telecommunications service) from knowingly accepting, in

You earn cash back rewards for eligible retail purchases less
any credits, returns and adjustments made by you or the
merchant to those purchases.
You earn 1.5% cash rewards for every $1 for all eligible
purchases.
4

Eligible purchases do not include cash advances, balance
transfers, convenience checks, fees, finance charges, cash
transactions, and disputed or unauthorized purchases or
fraudulent transactions. You also should be aware that you are
charged a balance transfer fee of 2.50% in addition to interest
on all balance transfers (except those that occur within the first
60 days of account opening), a cash advance fee of 2.00% in
addition to interest on all cash advances, and we will begin to
charge interest on both cash advances and balance transfers on
the transaction date.

expanding networks of automated teller machines (ATMs) in this
area, across the country, and overseas. Because each ATM is
slightly different, simply insert your card in the slot and follow the
directions that will appear on the screen. Some important directions
will come with the identification number, and we ask that you
follow those instructions carefully to protect your card from
unauthorized use.

The cash back rewards will show cumulatively on your monthly
billing statement as “Rebate Rewards Activity”. Accrual for cash
back rewards will begin on the first day of the billing cycle that
includes the date you open a Signature Reward Card account and
begin making eligible retail purchases. No retroactive cash back
rewards accrual will be awarded.

AUTOMATIC UPDATE SERVICE
As part of the services provided by VISA, VISA now requires card
issuers to participate in the VISA Automatic Updater (“VAU”)
services. VISA will monitor changes to your account information
and automatically update your account information, if changes to
your account are detected by VISA. The auto-updated information
may include a change in your name, card account number, and other
important and relevant information impacting your card account
and potential activity; this will allow you to continue to use your
card without interruption. If you do not want your information to be
automatically updated by VISA, then please contact us to discuss
options.

Cash accrual earned will only be credited in accounts that are open,
in good standing, not over limit, and not past due (i.e., you have
made at least the minimum payment by your billing due date). If
we close your card account, you will no longer be able to earn your
cash back rewards, and you will forfeit any accumulated cash back
rewards. If you close or convert your card account, you will no
longer be able to earn cash back rewards, and any eligible cash back
rewards prior to account closure will be forfeited.
Your qualified cash back rewards also will be forfeited if you have
closed your membership share/savings at TFCU.
If your card appears to be involved in any fraudulent, abusive or
suspicious activity, we may close or suspend your card account
immediately without giving you prior notice and you will also
forfeit your accrued eligible cash back rewards.
Each month you will have to pay the entire most current billing
statement balance in full, excluding the 0% promotional
balances, in order to meet the grace period on purchases.
Otherwise, interest will be charged on purchases as well as
balance transfers and cash advances.
The cash back rewards have no cash value. You may not assign,
transfer or pledge your cash back rewards. You have no property
rights or other legal interest in the cash back rewards.
The laws of the State of Oklahoma govern the Program and these
Terms and Conditions. This Program is void where prohibited by
federal, state or local law.
We reserve the right to change or terminate this Program upon
notice to you. If you default under your card agreement you may
lose all cash back rewards accumulated.
Determination and payment of any tax liability on cash back
rewards are the responsibility of the Cardholder.
All cash back rewards points expire at the end of the 4th year
after which they were earned. For example, points earned in
April 2017 will expire on your billing date in December 2020.

YOUR PERSONAL IDENTIFICATION NUMBER
Within the next few days, you will be receiving a Personal
Identification Number (PIN). This personal identification number
is being assigned to your account to allow you access to ever-

YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR
FUTURE USE
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR
STATEMENT
If you think there is an error on your statement, write to us at Tinker
Federal Credit Union, P.O. Box 45750, Tinker AFB, Oklahoma
73145, Attn: Credit Card Department.
In your letter give us the following information:
 Account information: Your name and account number.
 Dollar amount: The dollar amount of the suspected error.
 Description of problem: If you think there is an error on
your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
 Within 60 days after the error appeared on your statement.
 At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call
us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
WHAT WILL HAPPEN AFTER WE
RECEIVE YOUR LETTER
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill
is correct.
While we investigate whether or not there has been an error:
5






We cannot try to collect the amount in question, or report
you as delinquent on that amount.
The charge in question may remain on your statement, and
we may continue to charge you interest on that amount.
While you do not have to pay the amount in question, you
are responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
 If we made a mistake: You will not have to pay the amount
in question or any interest or other fees related to that
amount.
 If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you
as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also
reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we
must let those organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to pay
the first $50 of the amount you question even if your bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR
CREDIT CARD PURCHASES
If you are dissatisfied with the goods or services that you have
purchased with your credit card and you have tried in good faith to
correct the problem with the merchant, you may have the right not
to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with
a check that access your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing at:
Tinker Federal Credit Union
P.O. Box 45750
Tinker AFB, OK 73145
Attn: Credit Card Department
While we investigate, the same rules apply to the disputed amount
as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe any amount
and you do not pay, we may report you as delinquent.

6

IMPORTANT NOTICE TO TFCU
VISA PLATINUM ACCOUNT HOLDERS
Fees
Set‐up and Maintenance Fees
Annual Fee
Transaction Fees
Balance Transfers
Cash Advance
Foreign Transaction
Penalty Fees
Late Payment
Return Check Fee
Other Fees
Statement Copy
Ticket Copy
Travel & Entertainment
Original Sales Slip
Photocopy of Sales Slip
Card Replacement
Other Terms

VISA Classic
Option B

VISA Signature Cash‐Back

Prime Rate = PR

none

none

none
none
1.00% / in US dollars

2.50%
2.00%
1.00% / in US dollars

≤$22.00
≤$20.00

≤$22.00
≤$20.00

$2.00

$2.00

$25.00
$6.00
$5.00
$13.00
CURewards available

$25.00
$6.00
$5.00
$13.00
Available for Cash Back

If you currently have a credit card issued by TFCU and you decide to apply to instead
use the new VISA Signature Cash-Back credit card to be issued by TFCU, there are a
number of important disclosures of terms for you to consider first before you apply.
You will not be charged the 2.50% balance transfer fee for transfers from your current
TFCU-issued credit card, but you will NOT receive the promotional rate of 0% APR
for 6 months. Instead, you will be required to continue to pay Prime Rate plus the
percentage rates set based on your credit score at the time you opened the account on
any amounts you transfer to this card. You will also be paying an interest rate which
will be the HIGHER RATES on the chart for your specific type of card on all new
purchases, balance transfers, and cash advances if you do not pay off the entire
outstanding balance each month before the 25-day grace period to make your payment
expire each month. You also will pay a new 2.50% balance transfer fee on all
balance transfers from other lenders. You will be paying a new 2.00% fee on all cash
advances. On your current account you do not have any fee on balance transfers or
cash advances, although both do immediately begin to accrue interest, just as they will
on this new account, but at the lower rates instead of the higher interest rate you will
pay on the new account. You will lose any CURewards points you may have if you
close your current account before the points are used. Lower credit limits may be set
on the new account and you will not be permitted to transfer balances if you choose
to keep your current card and also apply for the new account, and your credit score
may be affected.

M-123238
Visa Platinum

M-120639
VISA Signature Cash-Back

In March 2020 Prime Rate
Decreased from 4.25% to 3.25%
Variable Rates tied to Prime Rate
Purchases
Rate 1 (740+)
Rate 2 (700-739)
Rate 3 (660-699)

PR + 5.5%
PR + 6.5%
PR + 7.5%

PR + 7.5%
PR + 8.5%
PR + 9.5%

Rate 4 (625-659)

PR + 9.5%

PR + 10.5%

PR + 11.5%

PR + 11.5%

PR + 5.5%
PR + 6.5%
PR + 7.5%
PR + 9.5%

PR + 9.5%
PR + 10.5%
PR + 11.5%
PR + 12.5%

Rate 5 (624-)
Balance Transfers/Cash Advance
Rate 1 (740+)
Rate 2 (700-739)
Rate 3 (660-699)
Rate 4 (625-659)

PR + 11.5%

PR + 13.5%

Rates (Account Opening)
APR for Purchases
Rate 1 (740+)
Rate 2 (700-739)
Rate 3 (660-699)

Rate 5 (624-)

3.99% 6mo
8.75%
9.75%
10.75%

0.00% 6mo
10.75%
11.75%
12.75%

Rate 4 (625-659)

12.75%

13.75%

Rate 5 (624-)

14.75%

Rate 1 (740+)
Rate 2 (700-739)
Rate 3 (660-699)

8.75%
9.75%
10.75%

14.75%
0.00% 6mo if transferred in 1st
60 days
fee + 12.75%
fee + 13.75%
fee + 14.75%

Rate 4 (625-659)

12.75%

fee + 15.75%

Rate 5 (624-)

14.75%

APR for Balance Transfers

Rate 1 (740+)
Rate 2 (700-739)
Rate 3 (660-699)

8.75%
9.75%
10.75%

fee + 16.75%
immediately when account
opens
fee + 12.75%
fee + 13.75%
fee + 14.75%

Rate 4 (625-659)

12.75%

fee + 15.75%

Rate 5 (624-)

14.75%

fee + 16.75%

APR for Cash Advances

Penalty APR and when it applies

25 days

7

25 days

IMPORTANT NOTICE TO TFCU
VISA CLASSIC OPTION A
ACCOUNT HOLDERS
Fees
Set‐up and Maintenance Fees
Annual Fee
Transaction Fees
Balance Transfers
Cash Advance
Foreign Transaction
Penalty Fees
Late Payment
Return Check Fee
Other Fees
Statement Copy
Ticket Copy
Travel & Entertainment
Original Sales Slip
Photocopy of Sales Slip
Card Replacement
Other Terms

VISA Classic
Option B

VISA Signature Cash‐Back
none

none

none
none
1.00% / in US dollars

2.50%
2.00%
1.00% / in US dollars

≤$22.00
≤$20.00

≤$22.00
≤$20.00

$2.00

$2.00

$25.00
$6.00
$5.00
$13.00
CURewards available

$25.00
$6.00
$5.00
$13.00
Available for Cash Back

If you currently have a credit card issued by TFCU and you decide to apply to
instead use the new VISA Signature Cash-Back credit card to be issued by TFCU,
there are a number of important disclosures of terms for you to consider first
before you apply. You will not be charged the 2.50% balance transfer fee for
transfers from your current TFCU-issued credit card, but you will NOT receive
the promotional rate of 0% APR for 6 months. Instead, you will be required to
continue to pay Prime Rate plus the percentage rates set based on your credit
score at the time you opened the account on any amounts you transfer to this card.
You will also be paying an interest rate which will be the HIGHER RATES on
the chart for your specific type of card on all new purchases, balance transfers,
and cash advances if you do not pay off the entire outstanding balance each
month before the 25-day grace period to make your payment expire each month.
You also will pay a new 2.50% balance transfer fee on all balance transfers
from other lenders. You will be paying a new 2.00% fee on all cash advances.
On your current account you do not have any fee on balance transfers or cash
advances, although both do immediately begin to accrue interest, just as they will
on this new account, but at the lower rates instead of the higher interest rate you
will pay on the new account. You will lose any CURewards points you may
have if you close your current account before the points are used. Lower credit
limits may be set on the new account and you will not be permitted to transfer
balances if you choose to keep your current card and also apply for the new
account, and your credit score may be affected.

Prime Rate = PR

M-121806

M-120639

In March 2020 Prime Rate

VISA Classic

VISA Signature Cash-Back

Decreased from 4.25% to 3.25%

Option A

Variable Rates tied to Prime Rate
Purchases
Rate 1 (740+)

PR + 4.9%

PR + 7.5%

Rate 2 (700-739)

PR + 5.9%

PR + 8.5%

Rate 3 (660-699)

PR + 6.9%

PR + 9.5%

Rate 4 (625-659)

PR + 8.9%

PR + 10.5%

PR + 10.9%

PR + 11.5%

Rate 1 (740+)

PR + 4.9%

PR + 9.5%

Rate 2 (700-739)

PR + 5.9%

PR + 10.5%

Rate 3 (660-699)

PR + 6.9%

PR + 11.5%

Rate 4 (625-659)

PR + 8.9%

PR + 12.5%

PR + 10.9%

PR + 13.5%

APR for Purchases

3.99% 6mo

0.00% 6mo

Rate 1 (740+)

8.15%

10.75%

Rate 2 (700-739)

9.15%

11.75%

Rate 3 (660-699)

10.15%

12.75%

Rate 4 (625-659)

12.15%

13.75%

Rate 5 (624-)

14.15%

14.75%

Rate 5 (624-)
Balance Transfers/Cash Advance

Rate 5 (624-)
Rates (Account Opening)

APR for Balance Transfers

0.00% 6mo transferred in 1st 60 days

Rate 1 (740+)

8.15%

fee + 12.75%

Rate 2 (700-739)

9.15%

fee + 13.75%

Rate 3 (660-699)

10.15%

fee + 14.75%

Rate 4 (625-659)

12.15%

fee + 15.75%

Rate 5 (624-)

14.15%

APR for Cash Advances

fee + 16.75%
immediately when account opens

Rate 1 (740+)

8.15%

fee + 12.75%

Rate 2 (700-739)

9.15%

fee + 13.75%

Rate 3 (660-699)

10.15%

fee + 14.75%

Rate 4 (625-659)

12.15%

fee + 15.75%

Rate 5 (624-)

14.15%

fee + 16.75%

25 days

25 days

Penalty APR and when it applies

8

IMPORTANT NOTICE TO TFCU
VISA CLASSIC OPTION B
ACCOUNT HOLDERS

Prime Rate = PR

M-121806

M-120639

In March 2020 Prime Rate

VISA Classic

VISA Signature Cash-Back

Decreased from 4.25% to 3.25%

Option B

Variable Rates tied to Prime Rate

Fees
Set‐up and Maintenance Fees
Annual Fee
Transaction Fees
Balance Transfers
Cash Advance
Foreign Transaction
Penalty Fees
Late Payment
Return Check Fee
Other Fees
Statement Copy
Ticket Copy
Travel & Entertainment
Original Sales Slip
Photocopy of Sales Slip
Card Replacement
Other Terms

VISA Classic
Option B

VISA Signature Cash‐Back
none

none

none
none
1.00% / in US dollars

2.50%
2.00%
1.00% / in US dollars

≤$22.00
≤$20.00

≤$22.00
≤$20.00

$2.00

$2.00

Purchases
Rate 1 (740+)

PR + 5.5%

PR + 7.5%

Rate 2 (700-739)

PR + 6.5%

PR + 8.5%

Rate 3 (660-699)

PR + 7.5%

PR + 9.5%

Rate 4 (625-659)

PR + 9.5%

PR + 10.5%

PR + 11.5%)

PR + 11.5%

Rate 1 (740+)

PR + 5.5%

PR + 9.5%

Rate 2 (700-739)

PR + 6.5%

PR + 10.5%

Rate 3 (660-699)

PR + 7.5%

PR + 11.5%

Rate 4 (625-659)

PR + 9.5%

PR + 12.5%

PR + 11.5%

PR + 13.5%

APR for Purchases

3.99% 6mo

0.00% 6mo

Rate 1 (740+)

8.75%

10.75%

Rate 2 (700-739)

9.75%

11.75%

Rate 3 (660-699)

10.75%

12.75%

Rate 4 (625-659)

12.75%

13.75%

Rate 5 (624-)

14.75%

14.75%

Rate 5 (624-)
Balance Transfers/Cash Advance

$25.00
$6.00
$5.00
$13.00
CURewards available

$25.00
$6.00
$5.00
$13.00
Available for Cash Back

If you currently have a credit card issued by TFCU and you decide to apply to
instead use the new VISA Signature Cash-Back credit card to be issued by TFCU,
there are a number of important disclosures of terms for you to consider first
before you apply. You will not be charged the 2.50% balance transfer fee for
transfers from your current TFCU-issued credit card, but you will NOT receive
the promotional rate of 0% APR for 6 months. Instead, you will be required to
continue to pay Prime Rate plus the percentage rates set based on your credit
score at the time you opened the account on any amounts you transfer to this card.
You will also be paying an interest rate which will be the HIGHER RATES on
the chart for your specific type of card on all new purchases, balance transfers,
and cash advances if you do not pay off the entire outstanding balance each
month before the 25-day grace period to make your payment expire each month.
You also will pay a new 2.50% balance transfer fee on all balance transfers
from other lenders. You will be paying a new 2.00% fee on all cash advances.
On your current account you do not have any fee on balance transfers or cash
advances, although both do immediately begin to accrue interest, just as they will
on this new account, but at the lower rates instead of the higher interest rate you
will pay on the new account. You will lose any CURewards points you may
have if you close your current account before the points are used. Lower credit
limits may be set on the new account and you will not be permitted to transfer
balances if you choose to keep your current card and also apply for the new
account, and your credit score may be affected.

Rate 5 (624-)
Rates (Account Opening)

APR for Balance Transfers

0.00% 6mo transferred in 1st 60 days

Rate 1 (740+)

8.75%

fee + 12.75%

Rate 2 (700-739)

9.75%

fee + 13.75%

Rate 3 (660-699)

10.75%

fee + 14.75%

Rate 4 (625-659)

12.75%

fee + 15.75%

Rate 5 (624-)

14.75%

APR for Cash Advances

fee + 16.75%
immediately when account opens

Rate 1 (740+)

8.75%

fee + 12.75%

Rate 2 (700-739)

9.75%

fee + 13.75%

Rate 3 (660-699)

10.75%

fee + 14.75%

Rate 4 (625-659)

12.75%

fee + 15.75%

Rate 5 (624-)

14.75%

fee + 16.75%

25 days

25 days

Penalty APR and when it applies

9

IMPORTANT NOTICE TO TFCU
PRIME PLUS – DEPOSIT SECURED
VISA ACCOUNT HOLDERS
Fees
Set‐up and Maintenance Fees
Annual Fee
Transaction Fees
Balance Transfers
Cash Advance
Foreign Transaction
Penalty Fees
Late Payment
Return Check Fee
Other Fees
Statement Copy
Ticket Copy
Travel & Entertainment
Original Sales Slip
Photocopy of Sales Slip
Card Replacement
Other Terms

VISA Classic
Option B

M-122938
VISA

M-120639

In March 2020 Prime Rate

Prime Plus –
Deposited Secured

VISA Signature Cash-Back

Decreased from 4.25% to 3.25%
VISA Signature Cash‐Back

none

none

none
none
1.00% / in US dollars

2.50%
2.00%
1.00% / in US dollars

≤$22.00
≤$20.00

≤$22.00
≤$20.00

$2.00

$2.00

$25.00
$6.00
$5.00
$13.00
CURewards available

Prime Rate = PR

$25.00
$6.00
$5.00
$13.00
Available for Cash Back

If you currently have a credit card issued by TFCU and you decide to apply to
instead use the new VISA Signature Cash-Back credit card to be issued by TFCU,
there are a number of important disclosures of terms for you to consider first
before you apply. You will not be charged the 2.50% balance transfer fee for
transfers from your current TFCU-issued credit card, but you will NOT receive
the promotional rate of 0% APR for 6 months. Instead, you will be required to
continue to pay Prime Rate plus the percentage rates set based on your credit
score at the time you opened the account on any amounts you transfer to this card.
You will also be paying an interest rate which will be the HIGHER RATES on
the chart for your specific type of card on all new purchases, balance transfers,
and cash advances if you do not pay off the entire outstanding balance each
month before the 25-day grace period to make your payment expire each month.
You also will pay a new 2.50% balance transfer fee on all balance transfers
from other lenders. You will be paying a new 2.00% fee on all cash advances.
On your current account you do not have any fee on balance transfers or cash
advances, although both do immediately begin to accrue interest, just as they will
on this new account, but at the lower rates instead of the higher interest rate you
will pay on the new account. You will lose any CURewards points you may
have if you close your current account before the points are used. Lower credit
limits may be set on the new account and you will not be permitted to transfer
balances if you choose to keep your current card and also apply for the new
account, and your credit score may be affected.

Variable Rates tied to Prime Rate
Purchases

PR + 3.9%

Rate 1 (740+)

PR + 7.5%

Rate 2 (700-739)

PR + 8.5%

Rate 3 (660-699)

PR + 9.5%

Rate 4 (625-659)

PR + 10.5%

Rate 5 (624-)

PR + 11.5%

Balance Transfers/Cash Advance

PR + 3.9%

Rate 1 (740+)

PR + 9.5%

Rate 2 (700-739)

PR + 10.5%

Rate 3 (660-699)

PR + 11.5%

Rate 4 (625-659)

PR + 12.5%

Rate 5 (624-)

PR + 13.5%

Rates (Account Opening)
APR for Purchases

3.99% 6mo then
7.15%

0.00% 6mo

Rate 1 (740+)

10.75%

Rate 2 ( 700-739)

11.75%

Rate 3 (660-699)

12.75%

Rate 4 (625-659)

13.75%

Rate 5 (624-)
APR for Balance Transfers

7.15%

Rate 1 (740+)

14.75%
0.00% 6mo transferred in 1st 60
days
fee + 12.75%

Rate 2 (700-739)

fee + 13.75%

Rate 3 (660-699)

fee + 14.75%

Rate 4 (625-659)

fee + 15.75%

Rate 5 (624-)

fee + 16.75%

APR for Cash Advances

7.15%

immediately when account opens

Rate 1 (740+)

fee + 12.75%

Rate 2 (700-739)

fee + 13.75%

Rate 3 (660-699)

fee + 14.75%

Rate 4 (625-659)

fee + 15.75%

Rate 5 (624-)

fee +16.75%

Penalty APR and when it applies

25 days

10

25 days

Prime Rate = PR

IMPORTANT NOTICE TO TFCU
VISA GOLD ACCOUNT HOLDERS
Fees
Set‐up and Maintenance Fees
Annual Fee
Transaction Fees
Balance Transfers
Cash Advance
Foreign Transaction
Penalty Fees
Late Payment
Return Check Fee
Other Fees
Statement Copy
Ticket Copy
Travel & Entertainment
Original Sales Slip
Photocopy of Sales Slip
Card Replacement
Other Terms

M-121773
Visa Gold

M-120639

In March 2020 Prime Rate

VISA Signature Cash-Back

Decreased from 4.25% to 3.25%

VISA Classic
Option B

VISA Signature Cash‐Back

Variable Rates tied to Prime Rate
Purchases

none

none

none
none
1.00% / in US dollars

2.50%
2.00%
1.00% / in US dollars

≤$22.00
≤$20.00

≤$22.00
≤$20.00

Rate 1 (740+)

PR + 5.25%

PR + 9..5%

$2.00

$2.00

Rate 2 (700-739)

PR + 6.25%

PR + 10.5%

$25.00
$6.00
$5.00
$13.00
CURewards available

$25.00
$6.00
$5.00
$13.00
Available for Cash Back

Rate 3 (660-699)

PR + 7.25%

PR + 11.5%

Rate 4 (625-659)

PR + 9.25%

PR + 12.5%

PR + 11.25%

PR + 13.5%

APR for Purchases

3.99% 6mo

0.00% 6mo

Rate 1 (740+)

8.50%

10.75%

Rate 2 (700-739)

9.50%

11.75%

Rate 3 (660-699)

10.50%

12.75%

Rate 4 (625-659)

12.50%

13.75%

Rate 5 (624-)

14.50%

14.75%

If you currently have a credit card issued by TFCU and you decide to apply to
instead use the new VISA Signature Cash-Back credit card to be issued by TFCU,
there are a number of important disclosures of terms for you to consider first
before you apply. You will not be charged the 2.50% balance transfer fee for
transfers from your current TFCU-issued credit card, but you will NOT receive
the promotional rate of 0% APR for 6 months. Instead, you will be required to
continue to pay Prime Rate plus the percentage rates set based on your credit
score at the time you opened the account on any amounts you transfer to this card.
You will also be paying an interest rate which will be the HIGHER RATES on
the chart for your specific type of card on all new purchases, balance transfers,
and cash advances if you do not pay off the entire outstanding balance each
month before the 25-day grace period to make your payment expire each month.
You also will pay a new 2.50% balance transfer fee on all balance transfers
from other lenders. You will be paying a new 2.00% fee on all cash advances.
On your current account you do not have any fee on balance transfers or cash
advances, although both do immediately begin to accrue interest, just as they will
on this new account, but at the lower rates instead of the higher interest rate you
will pay on the new account. You will lose any CURewards points you may
have if you close your current account before the points are used. Lower credit
limits may be set on the new account and you will not be permitted to transfer
balances if you choose to keep your current card and also apply for the new
account, and your credit score may be affected.

Rate 1 (740+)

PR + 5.25%

PR + 7.5%

Rate 2 (700-739)

PR + 6.25%

PR + 8.5%

Rate 3 (660-699)

PR + 7.25%

PR + 9.5%

Rate 4 (625-659)

PR + 9.25%

PR + 10.5%

PR + 11.25%

PR + 11.5%

Rate 5 (624-)
Balance Transfers/Cash Advance

Rate 5 (624-)
Rates (Account Opening)

APR for Balance Transfers

0.00% 6mo transferred in 1st 60 days

Rate 1 (740+)

8.50%

fee +12.75%

Rate 2 (700-739)

9.50%

fee + 13.75%

Rate 3 (660-699)

10.50%

fee + 14.75%

Rate 4 (625-659)

12.50%

fee + 15.75%

Rate 5 (624-)

14.50%

fee +16.75%

APR for Cash Advances

immediately when account opens

Rate 1 (740+)

8.50%

fee + 12.75%

Rate 2 (700-739)

9.50%

fee + 13.75%

Rate 3 (660-699)

10.50%

fee + 14.75%

Rate 4 (625-659)

12.50%

fee +15.75%

14.50%

fee +16.75%

25 days

25 days

Rate 5 (624-)
Penalty APR and when it applies

11

